No. 19A___
________________________________

In the Supreme Court of the United States
________________________________
Diné Citizens Against Ruining Our Environment; San Juan Citizens Alliance;
Amigos Bravos; Sierra Club; Center for Biological Diversity,
Petitioners,
v.
Navajo Transitional Energy Co. LLC; Arizona Public Service Co.; Bureau of Indian Affairs;
United States Department of the Interior; United States Office of Surface Mining Reclamation
and Enforcement; United States Bureau of Land Management; David Bernhardt, in his official
capacity as Secretary of the Interior; United States Fish and Wildlife Service,
Respondents.
________________________________
PETITIONERS’ APPLICATION TO EXTEND TIME TO FILE PETITION FOR A WRIT
OF CERTIORARI FROM MARCH 10, 2020 TO MARCH 24, 2020
________________________________
To the Honorable Elena Kagan, as Circuit Justice for the United States Court of Appeals for
the Ninth Circuit:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30.3, petitioners Diné
Citizens Against Ruining Our Environment, et al.,* request that the time to file a petition for a writ
of certiorari in this case be extended for 14 days to and including March 24, 2020. The United
States Court of Appeals for the Ninth Circuit issued its opinion on July 29, 2019, see App. A, infra,
and denied a timely petition for rehearing on December 11, 2019, see App. B, infra. Absent an
extension of time, the petition therefore would be due on March 10, 2020. Petitioners are filing
this application at least ten days before that date. See Sup. Ct. R. 13.5. This Court has jurisdiction
under 28 U.S.C. § 1254(1) to review this case.

*

Pursuant to Supreme Court Rule 29.6, petitioners state that they have no parent corporations and do not issue

stock.

1

Background
This case poses questions about whether and when non-federal entities are required and indispensable parties in a suit against a federal agency challenging agency action pursuant to the Administrative Procedure Act, 5 U.S.C. § 701 et seq.
1. Federal Rule of Civil Procedure 19(a) provides that “[a] person who is subject to service
of process and whose joinder will not deprive the court of subject-matter jurisdiction must be
joined as a party if,” inter alia, “that person claims an interest relating to the subject of the action
and is situated so that disposing of the action in the person’s absence may,” inter alia, “as a practical matter impair or impede the person’s ability to protect the interest.” Fed. R. Civ. P.
19(a)(1)(B)(i). The Rule further provides that, “[i]f a person who is required to be joined if feasible
cannot be joined, the court must determine whether, in equity and good conscience, the action
should proceed among the existing parties or should be dismissed,” in light of a non-exhaustive
list of enumerated factors. Fed. R. Civ. P. 19(b).
2. a. The Navajo Mine is located in New Mexico on tribal trust lands of the Navajo Nation,
a federally recognized Indian tribe with territory spanning Arizona, Utah, and New Mexico. App.
A at 7. The 33,000-acre strip mine produces coal from which the Four Corners Power Plant generates electricity. Ibid. The mine, which has operated since the 1960s, operates pursuant to a
surface mining permit issued by the Department of the Interior’s Office of Surface Mining Reclamation and Enforcement, pursuant to the Surface Mining Control and Reclamation Act of 1977,
30 U.S.C. § 1201 et seq. App. A at 7. For many years, a private company called BHP Billiton
Navajo Coal Co. (BHP Billiton) owned and operated the mine under a lease from the Navajo Nation. Ibid.

2

The Four Corners Power Plant is owned by several utility companies, including respondent
Arizona Public Service Co. (APS), which operates the power plant on behalf of all owners pursuant
to a decades-old lease agreement with the Navajo Nation. App. A at 7. Under the lease agreement,
the mine sells all of its coal exclusively to the power plant, which buys all of its coal exclusively
from the mine. Id. at 7-8. The Navajo Nation also authorizes easements for rights-of-way over
Navajo lands to the power plant; both the Navajo Nation and the Hopi Tribe authorize rights-ofway for power transmission lines on tribal lands. Id. at 8. The mine and power plant supply
significant revenue for the Navajo Nation. Ibid.
b. In 2011, APS and the Navajo Nation amended the lease governing operation of the power
plant. App. A at 8. The changes extended the term of the lease through 2041. Ibid. BHP Billiton
(the owner of the mine at the time) sought a renewal of the existing surface mining permit for the
mine and sought a new surface mining permit that would authorize mining activities in a new area
within the larger area covered by the mine lease. Ibid. In 2013, the Navajo Nation created respondent Navajo Transitional Energy Co. (NTEC) for the purpose of buying the mine from BHP
Billiton. Id. at 7.
The requests to renew and extend the mine lease and accompanying rights-of-way required
approval of several bureaus within the Department of the Interior. App. A at 8. In July 2015, the
relevant bureaus issued a Record of Decision, and the Deputy Secretary of the Interior then approved the permit renewal and extension. Id. at 9.
3. In 2016, petitioners—a group of conservation organizations—filed suit against the federal
agencies and officials responsible for approving the permit renewal and extension, alleging that
various agency actions violated the Endangered Species Act of 1973 (ESA), 16 U.S.C. § 1531 et
seq., and the National Environmental Policy Act of 1969 (NEPA), 42 U.S.C. § 4321 et seq. App. A

3

at 10. Petitioners sought declaratory and injunctive relief, including an order remanding the matter
to the responsible agencies for further analysis required by the ESA and by NEPA. Id. at 11.
After the federal defendants filed an answer, APS intervened. App. A at 11. NTEC also
sought to intervene for the limited purpose of filing a motion to dismiss pursuant to Federal Rules
of Civil Procedures 19 and 12(b)(7). Ibid. The district court granted NTEC’s motion to intervene
as of right because NTEC now owns the mine. Ibid. NTEC then filed a motion to dismiss petitioners’ claims, arguing that it is a required party due to its economic interest in the mine, that it
cannot be joined because it has tribal sovereign immunity, and that petitioners’ action could not
proceed in the absence of NTEC. Ibid.; App. C, infra, at 2. Although dismissal of the case would
have left the challenged agency actions in place, the federal defendants joined petitioners in opposing the motion to dismiss, arguing that the federal government is the only required party in an
action seeking to enforce compliance with NEPA and the ESA. App. A at 11.
The district court granted NTEC’s motion to dismiss. App. C. The court concluded that
NTEC has a legally protected interest in the subject matter of the suit under Rule 19(a)(1)(B),
which defines which parties are “[r]equired” parties who must be joined if feasible. Id. at 3; Fed.
R. Civ. P. 19(a)(1)(B). The court further held that the federal defendants could not adequately
represent NTEC’s interest in the litigation. App. C at 4-6. And the court concluded that NTEC
could not feasibly be joined as a party due to its tribal sovereign immunity. Id. at 5-7. Acknowledging that Rule 19 allows a suit to proceed without a required party when a court determines that,
“in equity and good conscience, the action should proceed among the existing parties,” Fed. R.
Civ. P. 19(b), the district court concluded that the suit could not proceed without NTEC because
of NTEC’s tribal sovereign immunity. App. C at 7.

4

4. Petitioners appealed, and the Ninth Circuit affirmed. On appeal, the federal defendants
participated as amicus curiae supporting petitioners’ request that the court of appeals reverse the
district court’s dismissal order. App. A at 28 n.8.
The court of appeals agreed with the district court’s conclusion that NTEC has a legally protected interest in the subject matter of this suit. App. A at 14-18. Although the court of appeals
recognized both that a legally protected interest must be “more than a financial stake,” id. at 14
(citation omitted), and that “an absent party has no legally protected interest at stake in a suit
seeking only to enforce compliance with administrative procedures,” id. at 15, the court concluded
that NTEC’s interest in the lease renewal and extension is legally protected and could be impaired
by this suit, which “may have retroactive effects on approvals already granted for mining operations,” id. at 18. The court went on to hold that no existing party adequately represents NTEC’s
interest in the litigation. Id. at 18-23. The court acknowledged that the federal defendants shared
NTEC’s interest in defending the challenged agency action, but concluded that that shared interest
was insufficient because of the government’s “overriding interest . . . in complying with environmental laws such as NEPA and the ESA.” Id. at 21. The court also held that NTEC could not
feasibly be joined in the suit because, as an arm of the Navajo Nation, it enjoys tribal sovereign
immunity. Id. at 23-24.
Having thus determined that NTEC is a required party that cannot feasibly be joined, the court
of appeals then turned to the question “whether, in equity and good conscience, the action should
proceed among the existing parties or should be dismissed.” App. A at 25 (quoting Fed. R. Civ.
P. 19(b)). Considering the factors enumerated in the rule, the court of appeals affirmed the district
court’s conclusion that the suit could not proceed without NTEC. Id. at 25-28. The court of

5

appeals also rejected the request from petitioners and the United States to apply the so-called “public rights” exception, which permits litigation to proceed without a required party when the suit
seeks to vindicate a public right. Id. at 28-33; see Nat’l Licorice Co. v. NLRB, 309 U.S. 350 (1940).
The court acknowledged that petitioners “seek only a renewed NEPA and ESA process,” but concluded that because “the implication of their claims is that Federal Defendants should not have
approved the mining activities in their exact form,” the suit “threatens NTEC’s legal entitlements.”
App. A at 32-33.
5. Petitioners filed a timely petition for rehearing en banc. After calling for a response, the
Ninth Circuit denied the petition on December 11, 2019. App. B.
Reasons For Granting An Extension Of Time
The time to file a petition for a writ of certiorari should be extended for 14 days to and including March 24, 2020, for the following reasons:
1. The forthcoming petition will present one or more important questions of federal law that
should be resolved by this Court. When a plaintiff sues a federal agency under the Administrative
Procedure Act (APA), 5 U.S.C. § 701 et seq., challenging the agency’s compliance with federal
law, the agency (including its officers) is ordinarily the only necessary defendant. The only question to be decided in an APA action is whether the challenged agency action should be set aside,
based on the justification articulated by the agency itself. In such cases, the agency is the only
necessary party to defend its own action. The APA does not authorize relief against any nonfederal entity—and petitioners seek relief only against the federal defendants. The court of appeals’ holding to the contrary undermines important public rights established by Congress. Nothing in Federal Rule of Civil Procedure 19 makes any non-federal entity a required, let alone indispensable, defendant in an APA action. The participation of the relevant agency is adequate to

6

represent the interests of any party that benefited from the challenged agency action. The Ninth
Circuit’s holdings to the contrary conflict with decisions of other courts of appeals and should be
reversed.
2. Petitioners have only recently retained Sarah Harrington as Supreme Court counsel for the
filing of a petition for a writ of certiorari. Ms. Harrington was not involved in any earlier stage of
the case. Additional time is necessary and warranted for counsel, among other things, to review
the record in the case, research case law in other circuits, and prepare a clear and concise petition
for certiorari for the Court’s review.
3. No prejudice would arise from the extension. Even with the modest extension requested,
and even if respondents obtain a 30-day extension of time to respond to the petition, the Court will
be able to consider the petition during this Term.
4. The press of other matters before this Court makes the submission of the petition difficult
absent an extension. Petitioners’ counsel is counsel or co-counsel in several other cases in which
filings are due in this Court in the next several months.
Conclusion
For the foregoing reasons, the time to file a petition for a writ of certiorari in this matter should
be extended for 14 days to and including March 24, 2020.
Respectfully submitted,
_______________________________
Sarah E. Harrington
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave., Suite 850
Bethesda, MD 20814
(202) 362-0636
sharrington@goldsteinrussell.com
February 21, 2020

7

